No.
IN THE
SUPREME COURT OF THE UNITED STATES
STATE OF NORTH CAROLINA,
PETITIONER,
v.
NORFOLK JUNIOR BEST,
RESPONDENT.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF NORTH CAROLINA
APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
[CAPITAL CASE]
JOSHUA H. STEIN
ATTORNEY GENERAL
Jonathan P. Babb
Special Deputy Attorney General
*Counsel of Record
North Carolina Department of Justice
Post Office Box 629
Raleigh, North Carolina 27602
(919) 716-6500
jbabb@ncdoj.gov

APPENDIX TO PETITION FOR WRIT OF CERTIORARI
TABLE OF CONTENTS
A.

Opinion of the Supreme Court of North Carolina, issued
December 18, 2020…………......................................................... 1a

B.

Order of the Superior Court of North Carolina, issued
January 23, 2018………………………………………………..…. 13a

C.

Opinion of the Supreme Court of North Carolina, issued
February 9, 1996………………………………………………….... 22a

D.

Transcript of DNA Motion Hearing dated April 11, 2016……. 30a

1a

State v. Best
Supreme Court of North Carolina
September 1, 2020, Heard in the Supreme Court; December 18, 2020, Filed
No. 300A93-3
Reporter
376 N.C. 340 *; 852 S.E.2d 191 **; 2020 N.C. LEXIS 1138 ***; 2020 WL 7416360

STATE OF NORTH CAROLINA v. NORFOLK JUNIOR
BEST

January 2018 by Judge Douglas B. Sasser, Sr. in
Superior Court, Bladen County denying defendant's
motion for appropriate relief. Heard in the Supreme
Court on 1 September 2020.
EARLS, Justice.

Prior History: State v. Best, 342 N.C. 502, 467 S.E.2d
45, 1996 N.C. LEXIS 7 (Feb. 9, 1996)

Disposition: REVERSED AND REMANDED.

Counsel: [***1] Joshua H. Stein, Attorney General, by
Jonathan P. Babb, Special Deputy Attorney General, for
the State-appellee.
Thomas, Ferguson & Mullins, LLP, by Jay H. Ferguson,
and Center for Death Penalty Litigation, by Ivy A.
Johnson, for defendant-appellant.

Judges: EARLS, Justice. Justice ERVIN did not
participate in the consideration or decision of this case.
Justice NEWBY dissenting.

In December 1991, the bodies of an elderly couple,
Gertrude and Leslie Baldwin, were found in their home
in Whiteville, North Carolina. The couple had been
beaten, stabbed, and apparently robbed. Norfolk Junior
Best, the defendant in this case, was indicted for firstdegree burglary, first-degree rape, robbery with a
dangerous weapon, and two [*341] counts of firstdegree murder. Following a jury trial, he was convicted
of all counts and sentenced to death. His conviction was
affirmed on direct appeal by this Court. State v. Best,
342 N.C. 502, 467 S.E.2d 45 (1996).
In postconviction proceedings, it became clear
that [***2] the State failed to produce certain pieces of
evidence to Mr. Best prior to the 1993 trial. Instead, the
evidence was, in part, voluntarily provided to Mr. Best's
postconviction counsel in 2011. Later that year,
postconviction counsel located additional evidence in
the attic of Whiteville City Hall. After the additional
evidence was produced and uncovered, Mr. Best filed a
motion for appropriate relief arguing, inter alia, that the
State's failure to disclose exculpatory evidence was a
violation of his right to due process pursuant to the
United States Supreme Court's decision in Brady v.
Maryland, 373 U.S. 83, 83 S. Ct. 1194, 10 L. Ed. 2d 215
(1963). The trial court denied the motion, concluding
that Mr. Best had not shown prejudice.

Opinion by: EARLS

Opinion

[*340] [**193] On writ of certiorari pursuant to
N.C.G.S. § 7A-32(b) to review an order entered on 23

Mr. Best claims, and the State denies, that the
undisclosed evidence was material to his guilt such that
he was prejudiced by the State's failure to produce it.
Mr. Best argues, and the State denies, that had the
evidence been disclosed, there is a reasonable
probability that the outcome of his trial would have been
different. We conclude that the undisclosed evidence
was material. It was reasonably probable that, had it
been disclosed to [**194] Mr. Best prior to trial, the

2a

Page 2 of 12

376 N.C. 340, *341; 852 S.E.2d 191, **194; 2020 N.C. LEXIS 1138, ***2
outcome would have been different. Therefore, we
reverse [***3] the trial court's denial of Mr. Best's
motion for appropriate relief, remanding with instructions
to grant the motion and order a new trial.

Background1
Prior to trial, Mr. Best had requested discovery from the
State several times regarding the case against him. On
20 December 1991, Mr. Best filed a motion for discovery
requesting, inter alia, the following:
6. To permit the defendant to inspect and copy or
photograph
books,
papers,
documents,
photographs, motion picture, mechanical or
electronic recordings, tangible objects, or copies or
portions thereof which are within the possession,
custody, or control of the State and which are
[*342] material to the preparation of this
defendant's defense, which the State intends to use
as evidence at defendant's trial or which were
obtained from or belong to the defendant (G.S.,
15A-903(d);
7. To provide a copy or permit the defendant or his
attorney to inspect and copy or photograph results
or reports of physical or mental examinations or of
tests, measurements or experiments made in
connection with this case, or copies thereof, within
the possession, custody, or control of the State, the
existence of which is known or by the exercise of
due diligence may become known [***4] to the
prosecutor (G.S. 15A-903(e);
8. The District Attorney is also given notice that
these requests are continuing, and the State is
under a duty to disclose any of the requested
material promptly to the defendant or his attorney if
discovered or the State decides to use it at the
captioned defendant's trial (G.S. 15A-907);

1 The

State does not dispute that the evidence identified by Mr.
Best was not disclosed prior to trial, arguing instead that Mr.
Best has not shown that there is a reasonable probability that
the undisclosed evidence affected the outcome of Mr. Best's
trial. We note this only to emphasize our sensitivity to the
principle that "[f]act finding is not a function of our appellate
courts." Godfrey v. Zoning Bd. of Adjustment, 317 N.C. 51, 63,
344 S.E.2d 272, 279 (1986). If there was a factual dispute to
be resolved in this case, the appropriate remedy would likely
be to remand to the trial court for an evidentiary hearing.

On 12 March 1992, Mr. Best filed a motion (dated 7
January 1992) seeking to inspect, examine, and test
physical evidence in the State's control. On the same
date, remarking that the 20 December 1991 request had
gone unanswered, Mr. Best filed a motion to compel the
State to produce discovery. The motion to compel
specifically requested test results, exculpatory
information, and potentially favorable evidence. After
being told that the District Attorney had an "open file
policy," defense counsel attempted on 19 March and 20
March 1992 to review Mr. Best's file at the District
Attorney's office, but in both instances was told that the
file was unavailable. On 2 April 1992, the District
Attorney provided defense counsel with discovery, and
continued to produce materials until shortly before trial.
Although the file stamps are unclear, it appears that Mr.
Best filed two more discovery requests [***5] on 24
June and 16 September 1992. In the first, Mr. Best
requested DNA test results from samples referenced in
a report that had been produced to him. In the second,
he requested information relevant to the reliability of the
DNA testing expected to be offered as evidence during
trial.
In the preliminary statement that appears before our
decision on Mr. Best's direct appeal, the evidence
presented at trial was described as follows:
The defendant was tried on two charges of firstdegree murder and one charge each of first-degree
burglary, robbery with a dangerous weapon, and
first-degree rape. [*343] The State's evidence
showed that Leslie Baldwin and his wife, Gertrude
Baldwin, were eighty-two and seventy-nine years of
age, respectively. They were killed in their home
during the night of 30 November [1991]. Earlier that
day, the defendant had done yard work for them.
Mr. Baldwin died as a result of the cutting of his
carotid artery, and Mrs. Baldwin died of blunt-force
trauma to the head. Money was missing from Mr.
Baldwin's wallet and from Mrs. Baldwin's purse.
The [**195] defendant's DNA matched one of the
semen samples taken from Mrs. Baldwin, and his
fingerprint matched one on a paring knife
found [***6] beside Mr. Baldwin's body. The
defendant bought between $700 and $1,000 worth
of crack cocaine within two days after the killings.
Best, 342 N.C. at 508-09, 467 S.E.2d at 49-50.
The Baldwins were discovered dead in their home on
Tuesday, 3 December 1991. At trial, the State

3a

Page 3 of 12

376 N.C. 340, *343; 852 S.E.2d 191, **195; 2020 N.C. LEXIS 1138, ***6
presented evidence that the Baldwins were robbed of
several hundred dollars, killed in their home, and that
Mrs. Baldwin had been raped. The couple's daughter
testified that Mrs. Baldwin, who took various
medications, filled her pillbox regularly each Thursday.
The medicine in the pillbox was arranged by time of day,
as well as day of the week. Based on the slots that were
filled with medicine in the pillbox, the couple's daughter
testified that Mrs. Baldwin had last taken her medication
at 11:00 p.m. on Saturday, 30 November 1991. The
couple's daughter also testified that Mr. Baldwin
habitually turned on a light in the kitchen before retiring
to bed. The light was discovered to be on in the kitchen.
Similarly, she testified that Mr. Baldwin, by routine,
retrieved and read the newspaper every morning, and
that it was the first thing he did after rising, getting
dressed, and taking his medicine. When the Baldwins'
bodies were discovered, the papers for Sunday, [***7] 1
December; Monday, 2 December; and Tuesday, 3
December 1991 were all laying on the front porch. The
State points to this evidence as support for the
conclusion that the deaths occurred in the late evening
of Saturday, 30 November 1991. A witness for the State
testified that she was with Mr. Best at a night club
beginning at 12:30 a.m. or 1:00 a.m. on 1 December
1991.
At trial, the State also tendered evidence that Mr. Best
was the perpetrator. The trial evidence identified by the
State consists of (1) a latent bloody fingerprint, matched
to Mr. Best, found on the blade of a paring knife which
was lying near Mr. Baldwin's body; (2) the results of a
DNA test showing that sperm found in Mrs. Baldwin's
vagina was a partial [*344] match to Mr. Best, and that
the probability of another unrelated person matching the
tested profile was "approximately 1 in 459 for the North
Carolina white population, 1 in 18 for the North Carolina
black population,2 and 1 in 484 for the North Carolina
Lumbee population;" and (3) testimony from Tammy
Rose Smith that Mr. Best spent one or two hundred
dollars on cocaine in the early morning hours of 1
December 1991, and from Carolyn Troy that Mr. Best
spent several hundred [***8] dollars on cocaine during
the evening of 2 December 1991.
At the trial's conclusion, Mr. Best was convicted and
sentenced to death. After we affirmed the conviction,
Mr. Best sought postconviction relief. He filed a motion
for appropriate relief in August 1997, which the trial
court denied in April 1998. We denied certiorari review.
State v. Best, 349 N.C. 365, 525 S.E.2d 179 (1998).
2 Mr.

Best is African-American.

In March and August of 2011, the State voluntarily
produced parts of its file to Mr. Best's new
postconviction counsel. After defense counsel filed a
motion seeking complete discovery pursuant to
N.C.G.S. § 15A-1415(f), defense counsel discovered
additional evidence "in a storage room in the attic of the
Whiteville City Hall." The following evidence arose in
postconviction discovery:

Undisclosed Forensic Evidence
At trial, a witness for the State testified that hairs were
collected from the crime scene. Further, testimony
established that, in addition to Mr. Best, head and pubic
hair samples were collected from two other suspects,
Eddie Best and Daniel Blanks, and from Mr. and Mrs.
Baldwin. The hair was analyzed. At trial, Mr. Best's
counsel attempted to elicit that none of the hairs had
been identified as coming from a Black person but was
unable to cross-examine the witness [***9] on the
findings of a non-testifying expert. However, the State
never disclosed that more than 70 hairs collected from
the crime scene, found on Mrs. Baldwin's arm, in her
pubic hair combings, and beneath Mr. Baldwin's
fingernails, were identified as Caucasian [**196] and
were not a match to anyone who was tested.
At trial, a witness for the State testified that tapings from
the crime scene were taken and tested for trace hair
and fiber evidence. The State did not disclose, however,
that a fiber comparison analysis was conducted
between (1) a number of items, including various items
of clothing and shoes, from Mr. Best's home and
person; and (2) various items from the crime scene,
including bedding, tapings, clothing, fingernail
scrapings, a place mat, and carpeting. The results of the
undisclosed
[*345]
comparison were that no
association was found between Mr. Best's effects and
the items from the crime scene.
As discussed previously, Mr. Best's fingerprint was
located on a paring knife that was lying next to Mr.
Baldwin's body at the crime scene. Lab notes which had
not been disclosed prior to trial contained the following
statement pertaining to the possible fingerprint: "The
ridge detail on item [***10] #4 was examined &
determined to be of no value @ this time however;
major case inked impressions will be needed in order to
effect any kind of conclusive comparison."
At trial, witnesses for the State testified that blood
remnants were found as a result of luminol testing "on
the carpet in Gertrude Baldwin's bedroom and in the

4a

Page 4 of 12

376 N.C. 340, *345; 852 S.E.2d 191, **196; 2020 N.C. LEXIS 1138, ***10
hallway" near where Mr. Baldwin was found. Another
witness testified that she tested a pair of Mr. Best's
shoes and determined that they did not have blood on
them. Undisclosed lab notes indicated that the luminol
tests had revealed shoe tracks of blood residue, about
which the witness did not testify and of which defense
counsel was not aware.

As discussed previously, Carolyn Troy testified at trial
that Mr. Best spent hundreds of dollars during the
evening of 2 December 1991, near the time that the
State believes the Baldwins were robbed and murdered.
However, the State did not disclose Ms. Troy's initial
witness interview, during which Ms. Troy stated that she
was with Mr. Best at the time, but that he only had $30
to $40 on him.

1991, someone named "Rick" was driving around the
Baldwins' neighborhood without lights. The driver drove
up and down the street three or four times until
someone exited the [***12] car and walked away. The
car drove off and returned about forty-five minutes later,
at which time a friend of the woman's asked the driver
what he was doing. The driver stated that he was
looking for a friend. This occurred before the Baldwins'
bodies were discovered. Police ran the license plate and
connected the vehicle to someone named Gary Clayton
Derrick, who apparently knew Mr. Winford. Mr. Derrick
reported that Mr. Winford had stolen his car and taken
off, and later reported speaking with a third person,
Janet. The notes indicate that Mr. Winford told Janet
"that he had killed some people in Whiteville." In a
record of a phone interview, Mr. Derrick reported that
Winford had previously bragged about killing people,
had [**197] previously committed burglaries, and had
once pulled a knife on Derrick.

Other Evidence

Destene Harris

The evidence at trial also indicated that the assailant
broke a pane of glass to enter [***11] the home. A lab
report discussing the analysis of the glass indicated that
clothing and two pairs of shoes from Mr. Best did not
have any glass that matched the glass collected from
the crime scene—although one of the pairs of shoes
showed glass particles which did not match the glass
from the crime scene. The record includes an affidavit
from Mr. Best's trial counsel indicating that the report
was included in postconviction discovery, and had not
been previously disclosed to trial counsel.

The State's 2011 disclosures also included a number of
documents pertaining to Destene Harris. According to a
5 December 1991 report from Alice Cooke, Mr. Harris
threatened to kill some "old farts" that lived hear him. He
apparently also often carried a knife. Ms. Cooke also
reported that, on 2 December 1991 (a Monday), she
had heard Mr. Harris state that he had killed two
"old [***13] farts" over the weekend. Mr. Harris was
incarcerated in Alamance County from 29 November
until 3 December 1991.

Undisclosed Witness Interviews

The State also did not disclose that three one-hundreddollar bills were found in a money holder in Mrs.
Baldwin's purse.

Undisclosed Alternate Suspects
Finally, the State failed to disclose evidence regarding
two alternate suspects: Ricky Winford and Destene
Harris.

[*346] Ricky Winford
The State's 2011 disclosures contained a number of
documents relating to Ricky Winford, an alternate
suspect in the crime. Interview notes suggest that a
woman called police on the evening of 4 December
1991 to report that, on the morning of 3 December

Mr. Best filed the instant motion, his second motion for
appropriate relief, on 16 January 2014. He argued (1)
that the State withheld exculpatory evidence in violation
of his constitutional rights established in Brady and its
progeny; (2) that the State misled the jury as to the
victims' time of death, or, in the alternative, that his trial
counsel was ineffective for failing to refute the State's
theory on time of death; and (3) that the State misled
the jury as to the reliability of the DNA evidence it
presented against him, or, in the alternative, that his trial
counsel was ineffective for failing to refute the DNA
evidence. Because we determine that Mr. Best's Brady
claim is meritorious, we need not address the remaining
claims.
As to Mr. Best's claim that he is entitled to a new trial
due to the State's failure to disclose favorable evidence,
the superior court made the following conclusions of
law:

5a

Page 5 of 12

376 N.C. 340, *346; 852 S.E.2d 191, **197; 2020 N.C. LEXIS 1138, ***13
[*347] 7. In his MAR2 Claim I, Best claims that he
is entitled to a new trial because the state
wrongfully
concealed
exculpatory
evidence
regarding (a) two alternate suspects[,] (b) [***14]
exculpatory forensic testing results[,] and (c) key
evidence undermining its theory of motive and
identity.
8. Best has failed to show the existence of the
asserted ground for relief. N.C. Gen[.] Stat. § 15A1420(c)(6); Brady v. Maryland, 373 U.S. 83, 83 S.
Ct. 1194, 10 L. Ed. 2d 215 (1963); State v.
Strickland, 346 N.C. 443, 488 S.E.2d 194 (1997).
9. In the present case there was overwhelming
evidence at trial against defendant and none of the
alleged Brady material would have amounted to a
reasonable probability of a different result.
Therefore, defendant's Brady claim must fail.
Strickland at 457, 488 S.E.2d at 202.
10. In post-conviction, the overwhelming evidence
presented at trial was not refuted or weakened.
Instead the post-conviction DNA removed any
doubt, reasonable or unreasonable, of defendant's
guilt. Both experts testified in post-conviction that
the sperm fraction, not the skin fraction, taken from
the rape/murder victim was an exact match for
defendant's DNA profile. (See 11 April 2016 Postconviction hearing transcript pp. 56 [testimony of
Maher Noureddine] and 68 [ testimony of Mark
Boodee].)
11. Given the evidence showing defendant's guilt
presented at trial, none of the complained of
evidence in Claim I, if turned over could have
amounted to a reasonable probability of a different
result. Additionally, the post-conviction DNA testing
results [***15] further illustrate the lack of any
possible prejudice.
12. As this Court can determine from the motion
and any supporting or opposing information
presented that this claim is without merit, an
evidentiary hearing is not necessary to decide the
issues raised in this claim. N.C. Gen. Stat. § 15A1420(c)(1) and State v. McHone, 348 N.C. 254,
257, 499 S.E.2d 761, 762-63 (1998), cert. denied,
528 U.S. 1095, 120 S. Ct. 835, 145 L. Ed. 2d 702
(2000).
Mr. Best petitioned for a writ of certiorari to this Court,
which we allowed.

[*348] Standard of Review
The trial court denied Mr. Best's motion for appropriate
relief without an evidentiary hearing, deciding that it
could "determine from the motion and any supporting or
opposing information presented that this claim is without
merit." See N.C.G.S. § 15A-1420(c)(1) (2019)
(permitting a trial court to forgo an evidentiary hearing
on a motion for appropriate relief if "the court determines
that the motion is without merit"). Because the trial court
did not make findings of fact, instead concluding that Mr.
Best was not entitled to relief as a matter of law, our
[**198] review of the trial court's decision is de novo.
State v. Biber, 365 N.C. 162, 168, 712 S.E.2d 874, 878
(2011) ("Conclusions of law are reviewed de novo and
are subject to full review.").

Analysis
The State violates the federal constitution's Due
Process Clause "if it withholds evidence that is favorable
to the defense and material to the defendant's guilt or
punishment." Turner v. United States, 137 S. Ct. 1885,
1888, 198 L. Ed. 2d 443 (2017) [***16] (quoting Smith
v. Cain, 565 U.S. 73, 75, 132 S. Ct. 627, 630, 181 L. Ed.
2d 571 (2012)). However, not every failure to disclose
violates the Constitution. Instead, "prejudicial error must
be determined by examining the materiality of the
evidence." State v. Tirado, 358 N.C. 551, 589, 599
S.E.2d 515, 540 (2004) (quoting State v. Howard, 334
N.C. 602, 605, 433 S.E.2d 742, 744 (1993)). To
establish prejudice on such a claim, often referred to as
a Brady claim,3 a defendant must show that "there is a
reasonable probability that, had the evidence been
disclosed to the defense, the result of the proceeding
would have been different." Id. (quoting United States v.
Bagley, 473 U.S. 667, 682, 105 S. Ct. 3375, 3383, 87 L.
Ed. 2d 481 (1985)).
A reasonable probability is one "sufficient to undermine
confidence in the outcome" of the proceeding. State v.
Byers, 375 N.C. 386, 400, 847 S.E.2d 735, 741 (2020)
(quoting State v. Allen, 360 N.C. 297, 316, 626 S.E.2d

3 See

Brady v. Maryland, 373 U.S. 83, 87, 83 S. Ct. 1194,
1196-97, 10 L. Ed. 2d 215 (1963) ("We now hold that the
suppression by the prosecution of evidence favorable to an
accused upon request violates due process where the
evidence is material either to guilt or to punishment,
irrespective of the good faith or bad faith of the prosecution.").

6a

Page 6 of 12

376 N.C. 340, *348; 852 S.E.2d 191, **198; 2020 N.C. LEXIS 1138, ***16
271, 286 (2006)). The defendant's burden to show a
reasonable probability is less than that for showing a
preponderance. Smith, 565 U.S. at 75, 132 S. Ct. at 630
("A reasonable probability does not mean that the
defendant would more likely than not have received a
different verdict with the evidence, only that the
likelihood of a different result is great enough to
undermine confidence in the outcome of the trial."
(cleaned up)); accord Kyles v. Whitley, 514 U.S. 419,
434, 115 S. Ct. 1555, 1565-66, 131 L. Ed. 2d 490
[*349] (1995). However, a reasonable probability is
more than a mere possibility. Strickler v. Greene, 527
U.S. 263, 291, 119 S. Ct. 1936, 1953, 144 L. Ed. 2d 286
(1999). A defendant's burden, then, on a Brady claim, is
more than showing that withheld evidence might have
affected the verdict, but less than showing that withheld
evidence more likely than not affected the verdict. When
we consider whether there was a reasonable probability
that the undisclosed evidence would have altered the
jury's verdict, we consider "the context of the entire
record." United States v. Agurs, 427 U.S. 97, 112, 96 S.
Ct. 2392, 2402, 49 L. Ed. 2d 342 (1976).
While we review the entire record, we need not consider
every piece of undisclosed material evidence identified
by the defendant. Where any portion of the evidence
"alone suffice[s] to undermine confidence in [the
defendant's] [***17] conviction, we have no need to
consider his arguments that the other undisclosed
evidence also requires reversal under Brady." Smith,
565 U.S. at 76, 132 S. Ct. at 631. As a result, any piece
of undisclosed evidence, if sufficiently material to
undermine confidence in the outcome of the trial, is
sufficient to satisfy the defendant's burden on a Brady
claim.
The question that we must answer when deciding such
a claim is not whether the defendant is guilty or
innocent, but whether he received a fair trial in
accordance with the requirements of due process. See
Brady, 373 U.S. at 87, 83 S. Ct. at 1196-97 (holding that
nondisclosure of favorable evidence to the defense
violates due process). As a result, we cannot, and do
not here, consider new evidence produced after
conviction which may tend to support or negate either
guilt or innocence.4 After a thorough [**199] review of

4 The

State refers at various points in its brief to the results of
a postconviction DNA test which Mr. Best requested pursuant
to N.C.G.S. § 15A-269. results indicated an exact match
between Mr. Best's DNA profile and that of a sperm fraction
recovered from a vaginal swab of Mrs. Baldwin's body. While

the record, and consideration of the arguments of the
parties, we are convinced that Mr. Best has met his
burden.
[*350] According to the State, the principal evidence
presented at trial which proved Mr. Best's guilt consisted
of: (1) Best's fingerprint on a paring knife; (2) the partial
DNA match between Mr. Best and the semen found in
Mrs. Baldwin's vagina; and (3) testimonial [***18]
evidence that the Baldwins had been robbed, and that
Mr. Best was spending large amounts of money on
drugs around the time of the murders. This evidence
was strong enough at trial for the jury to have convicted
Mr. Best. However, upon consideration of the
undisclosed evidence, the case is far less compelling.
Regarding the assertion that Mr. Best was spending
large sums of money around the time of the murders,
the State relied upon the testimony of both Carolyn Troy
and Tammy Rose Smith. The State's undisclosed
witness interview of Carolyn Troy, in which she stated
that Mr. Best had only thirty or forty dollars on him on
the night of 2 December 1991, would have permitted Mr.
Best to impeach Ms. Troy's testimony. In addition to
directly contradicting what Ms. Troy testified to at trial,
the fact that Ms. Troy's story had changed over time, if
admitted to at trial, could have been used by Mr. Best to
impeach her credibility. We have previously stated that
"exculpatory evidence is evidence that is either material
to the guilt of the defendant or relevant to the
punishment to be imposed, . . . including impeachment
evidence." State v. Lewis, 365 N.C. 488, 501, 724
S.E.2d 492, 501 (2012) (cleaned up). Ms. Troy was the
principal witness testifying [***19] to what the State

this result may be relevant to subsequent proceedings
designed to prove Mr. Best's guilt or innocence, that is not the
question before us now. Instead, we must decide whether Mr.
Best's original trial, which took place in 1993, was procedurally
fair. See United States v. Bagley, 473 U.S. 667, 678, 105 S.
Ct. 3375, 3381, 87 L. Ed. 2d 481 (1985) ("[A] constitutional
error occurs, and the conviction must be reversed, only if the
evidence is material in the sense that its suppression
undermines confidence in the outcome of the trial." (emphasis
added)); see also id. at 699, 105 S. Ct. at 3392 (Marshall, J.,
dissenting) ("[The Court] defines the right . . . by reference to
the likely effect the evidence will have on the outcome of the
trial."). Because the postconviction DNA test result identifying
Mr. Best did not exist until decades after the trial took place, it
could not have affected the outcome of the trial. As a result,
we do not consider it here. We note also defense counsel's
assertions that the test sample may have been
contaminated—although, again, the test result does not factor
into our analysis.

7a

Page 7 of 12

376 N.C. 340, *350; 852 S.E.2d 191, **199; 2020 N.C. LEXIS 1138, ***19
identifies as a principal piece of evidence—namely, that
Mr. Best was spending the money stolen from the
Baldwins.
The State argues that the undisclosed witness interview
is not material because another witness, Tammy Rose
Smith, testified that Mr. Best was spending money on 1
December 1991. However, according to the State, Ms.
Smith testified that Mr. Best spent about two hundred
dollars, and may have also paid for a hotel room. This is
a far cry from the $1,800 that the State claims were
stolen from the Baldwins. More importantly, it is a
significant departure from the testimony of Ms. Troy,
who testified at trial that she saw Mr. Best with $300 and
saw him purchase $750 to $900 worth of drugs during
the late night of Monday, 2 December 1991 and early
morning of Tuesday, 3 December 1991. The State
cannot credibly claim that the evidence undermining the
testimony of Ms. Troy, who claimed that Mr. Best used
over $1000 to buy drugs, is inconsequential because
another witness testified that Mr. Best had about $200
and paid for a hotel room.5
[*351] While the other evidence identified by Mr. Best
does not directly refute the DNA and fingerprint
evidence presented [***20] at trial, it does undermine
its persuasive effect. For [**200] example, because the
State failed to disclose the lab notes for the luminol tests
conducted in the Baldwins' home, the jury did not learn
that the State found "shoe tracks" in the hallway and
kitchen areas, suggesting that the assailant left bloody
footprints during the attack. This increases the
exculpatory relevance of the testimony, presented at
trial, that Mr. Best's shoes were tested and found to be
devoid of blood. Had these pieces of evidence been

5 The

dissent refers to three additional persons who might
have, but did not, testify that Mr. Best was spending money
around the time the State argued the Baldwins were
murdered. However, the question before us is whether there is
a reasonable probability that the result of the proceeding
would have been different if the undisclosed evidence had
been provided to the defense. State v. Tirado, 358 N.C. 551,
589, 599 S.E.2d 515, 540 (2004). As a result, we cannot
speculate as to what evidence the State could have, but did
not, put on. We must instead look to the record of the
proceeding as it exists, and determine whether there is a
reasonable probability that the outcome of that proceeding,
rather than a hypothetical proceeding with stronger evidence
from the State, would have changed with the undisclosed
evidence. Cf. Browning v. Trammell, 717 F.3d 1092, 1105
(10th Cir. 2013) (confining Brady analysis "to the record before
the state trial court").

presented together, it is more likely that the jury may
have concluded that Mr. Best was not in the home
during the murders. Similarly, due to the State's failure
to disclose, the jury never learned that the State had
discovered 70 Caucasian hairs on the bodies of the
victims which were not yet matched to anyone in the
case. Mr. Best could have easily pointed out at trial that,
as a Black man, he could not have left those hairs on
the victims' bodies and underneath the fingernails of Mr.
Baldwin. It also does not appear from the lab notes that
the hairs were tested to see if they matched Ricky
Winford. We do not conclude or suggest that this proves
Mr. Best's innocence. Instead, [***21] we conclude only
that this evidence creates a reasonable probability that
the jury would have returned a different verdict had it
been presented with the undisclosed evidence. See
Tirado, 358 N.C. at 589, 599 S.E.2d at 540 (stating that
establishing prejudice requires a showing that "there is a
reasonable probability that, had the evidence been
disclosed to the defense, the result of the proceeding
would have been different" (quoting Bagley, 473 U.S. at
682, 105 S. Ct. at 3383)); see also Smith, 565 U.S. at
75, 132 S. Ct. at 630 ("A reasonable probability does not
mean that the defendant would more likely than not
have received a different verdict with the evidence, only
that the likelihood of a different result is great enough to
undermine confidence in the outcome of the trial."
(cleaned up)).
Not all of the withheld evidence described by Mr. Best is
material. Mr. Best makes much in his brief of a
statement in the fingerprint analyst's lab notes that "[t]he
ridge detail on [the knife] was examined [*352] &
determined to be of no value." As the State correctly
points out, Mr. Best ignores the rest of the sentence,
which clarifies that the ridge detail is not of value "[at]
this time" and that a conclusive comparison will require
"major case inked impressions." As to Mr. Best's
fingerprint on the knife, then, the [***22] evidence
highlighted by Mr. Best does not undercut the reliability
of the fingerprint identification.
That being said, the evidence against Mr. Best is not as
strong as the State claims it is. The State's evidence
establishes that Mr. Best touched the knife while he had
blood on his finger—Mr. Best testified at trial that he
was using the knife to clean the gutters, which he had
been hired to do that day, and had scraped the backs of
his hands. While the dissent claims that the fingerprint
on the knife consisted of Mr. Baldwin's blood, this claim
is unsupported by the record.6 While the jury certainly
6 It

appears that the dissent takes a stray statement from the

8a

Page 8 of 12

376 N.C. 340, *352; 852 S.E.2d 191, **200; 2020 N.C. LEXIS 1138, ***22
did not have to believe Mr. Best's testimony, the
existence of a ready explanation for the fingerprint on
the knife undermines the State's argument that the
fingerprint is such overwhelming evidence so as to
render harmless the State's failure to disclose other
exculpatory evidence.
Finally, the State relies on the partial DNA match
between Mr. Best and the semen recovered from Mrs.
Baldwin. However, this evidence is similarly
underwhelming. The State's expert testified that,
regarding the reliability of the DNA match, one out of
every eighteen African-American men would match the
sample [***23] recovered from Mrs. Baldwin. To put
that into perspective, out of every 90 African-American
men, five would match the sample, but at least four of
them would not be the actual source of the DNA
sample. Typically DNA evidence is significantly [**201]
more compelling. See, e.g., State v. Honeycutt, 235
N.C. App. 656, 764 S.E.2d 699 (2014) (stating that a
DNA analysis of the victim's bedsheet indicated "a DNA
match probability with defendant of one in 730 billion
Caucasians, and her rape kit had a match probability
with defendant of one in 36.2 billion Caucasians" and
that another victim's "rape kit was consistent with
defendant with a match probability of one in 16.2 million
Caucasians"). Where, here, the DNA evidence
presented at trial indicated that the tested DNA sample
would match one out of [*353] every eighteen AfricanAmerican men, we conclude that it is not nearly the
overwhelming evidence that the State suggests it is.
While it is not relevant to our analysis on Mr. Best's
Brady claim, Mr. Best also raised a claim of ineffective
assistance of counsel which casts doubt on the State's
timeline of events. At trial, the State relied upon the
testimony of the Baldwins' daughter to establish that,
based on the contents of Mrs. Baldwin's pillbox, the
presence [***24] of newspapers on the Baldwins' front
porch, and the fact that a light in the kitchen was on
which Mr. Baldwin habitually turned on before retiring to
bed, the Baldwins had been killed after 11 p.m. on 30
State's brief and attempts to create a factual dispute in the
evidence regarding the source of the blood that made up the
fingerprint on the knife. Contrary to the dissent's assertion, the
State's brief claims only that the knife had Mr. Baldwin's blood
on it, not that the fingerprint was composed of Mr. Baldwin's
blood. It is unsurprising that the State made no such claim, as
Special Agent Lucy Milks, testifying for the State at Mr. Best's
trial, stated that she tested the blood from the fingerprint and
was able to determine only that it was blood—she was unable
to determine a blood type, or even whether it was animal or
human blood.

November 1991 and before Mr. Baldwin would have
normally awoken the following morning. The State also
presented testimony that Mr. Best was out at a nightclub
at approximately 12:30 a.m. or 1:00 a.m. on 1
December 1991. The State, in its brief, argues that the
killings must have occurred between 11:00 p.m. on 30
November 1991 and 12:30 a.m. on 1 December 1991:
To sum up — all the physical evidence at the crime
scene indicated the victims were killed after 11:00
p.m. Saturday night and before Mr. Baldwin went to
bed, and certainly before the next morning. At some
point between 12:30 am Sunday morning and 1:00
a.m. Sunday morning defendant was seen paying
for hotel rooms, beer, and drugs with cash. Ms.
Smith was called by defendant at trial and was the
witness who testified about the large amount of
cash spent by defendant after midnight Saturday
night.
Mr. Best argued that effective trial counsel would have
challenged this timeline, pointing out that the State's
theory that Mr. Best killed [***25] the Baldwins required
that the crime occur during an exceedingly narrow
window of time, unsupported by expert testimony as to
time of death. Mr. Best points to medical evidence
gathered after conviction by postconviction counsel,
which suggests the Baldwins did not die during the
narrow window of time posited by the State. While the
dissent views the State's evidence on this point as
persuasive, the combination of (1) no medical evidence
confirming the State's timeline and (2) the
postconviction medical evidence suggesting that the
State's timeline was inaccurate confirms our
independent view that the State's evidence presented at
trial was weak enough that there is a reasonable
probability of a different outcome if the State had
disclosed the exculpatory evidence.
We are not considering and do not decide whether Mr.
Best received effective assistance of counsel during his
original trial. Further, we cannot and do not decide that
the production of this additional evidence [*354]
postconviction supports a reasonable probability that the
jury in Mr. Best's trial would have come to a different
result if presented with evidence that the State failed to
disclose. Instead, we mention Mr. Best's [***26]
ineffective assistance of counsel claim, and the
evidence supporting it, only to underscore the weakness
of the State's case at trial, and the likelihood that the
jury may have decided to acquit if it had been presented
with all of the evidence.
Our decision is based upon Mr. Best's claim that the

9a

Page 9 of 12

376 N.C. 340, *354; 852 S.E.2d 191, **201; 2020 N.C. LEXIS 1138, ***26
State failed to disclose material exculpatory evidence.
We are sufficiently disturbed by the extent of the
withheld evidence in this case, and by the materiality of
that evidence, that it undermines our confidence in the
jury's verdict. The exculpatory evidence withheld by the
State for approximately twenty years was material. It
either negated or cast doubt upon the principal evidence
presented by the State at Mr. Best's trial. For that
reason, we are of the opinion that "there is a reasonable
probability that, had the evidence been disclosed to the
defense, the result of the proceeding would have been
different." Tirado, 358 N.C. at 589, 599 S.E.2d at 540.
[**202] We have not discussed all of the evidence
which the State failed to disclose, but "we have no need
to consider [Mr. Best's] arguments that the other
undisclosed evidence also requires reversal under
Brady." Smith, 565 U.S. at 76, 132 S. Ct. at 631. The
undisclosed witness interview of Carolyn Troy and the
undisclosed [***27] forensic evidence, particularly the
unidentified Caucasian hairs and luminol test notes
indicating the presence of bloody shoe tracks, are
sufficiently material. When considered against the facts
that (1) the State relied heavily on the testimony of Ms.
Troy that Mr. Best was spending the proceeds of the
robbery on drugs; (2) Mr. Best is not white and could not
have contributed the "Caucasian" hairs recovered from
the crime scene, while no "Negroid" hairs were
recovered; and (3) Mr. Best's shoes were tested and
revealed no traces of blood, there is a reasonable
probability that the jury would have returned a different
verdict if presented with the undisclosed evidence.

Conclusion
We have not decided today that Mr. Best is guilty or
innocent, that the district attorney was right or wrong to
charge him, or that Mr. Best should be convicted or
acquitted on retrial. Instead, our review of the record in
this case shows that the failure to disclose exculpatory
evidence prejudiced Mr. Best's ability to present a
defense. Every criminal defendant in this state is entitled
to a fair trial with full opportunity to confront the
evidence against him and to attempt to rebut the
charges of which he [***28] is accused. The state and
federal constitutional guarantees [*355] of due process
require that the State turn over favorable evidence that
is material to the defendant's guilt or punishment prior to
trial. That did not happen in this case. Accordingly, we
reverse the superior court's denial of Mr. Best's motion
for appropriate relief and remand this case to the
Superior Court, Bladen County, with instructions to grant

the motion and order a new trial.
REVERSED AND REMANDED.
Justice ERVIN did not participate in the consideration or
decision of this case.
Dissent by: NEWBY

Dissent
Justice NEWBY dissenting.
The issue in this case is whether evidence that the State
presumably should have disclosed before defendant's
trial under Brady v. Maryland, 373 U.S. 83, 83 S. Ct.
1194, 10 L. Ed. 2d 215 (1963), creates a reasonable
probability of a different outcome of that trial. Because
the undisclosed evidence is not sufficient to undermine
the substantial evidence of defendant's guilt presented
at trial, any Brady violation did not meet the standard of
being prejudicial to defendant. The majority inflates the
significance of vague undisclosed evidence and
improperly minimizes the weight of the State's strong
evidence presented at trial. The majority seems to find
facts, weighing conflicting evidence [***29] in the light
most favorable to defendant. The decision of the
superior court denying defendant's motion for
appropriate relief should be affirmed. I respectfully
dissent.
Due process guards a defendant's right to a fair trial free
from prejudicial error. The State may deprive a
defendant of due process when it fails to disclose
evidence that is favorable to the defendant and material
to the defendant's guilt or punishment. Smith v. Cain,
565 U.S. 73, 75, 132 S. Ct. 627, 630, 181 L. Ed. 2d 571
(2012). As the majority notes, however, not every failure
to disclose amounts to a constitutional violation. Instead,
a defendant also must show that "there is a reasonable
probability that, had the evidence been disclosed to the
defense, the result of the proceeding would have been
different." United States v. Bagley, 473 U.S. 667, 682,
105 S. Ct. 3375, 3383, 87 L. Ed. 2d 481 (1985).
The following evidence presented at trial supported
defendant's conviction and sentencing: Eighty-two-yearold Leslie Baldwin met defendant at a gas station the
evening of 29 November 1991. The details of their
encounter are unclear, but the evidence shows that Mr.

10a

Page 10 of 12

376 N.C. 340, *355; 852 S.E.2d 191, **202; 2020 N.C. LEXIS 1138, ***29
Baldwin hired defendant to perform yard work for him
the next day. Defendant [*356] walked to the home of
Mr. Baldwin and his wife, seventy-nine-year-old
Gertrude Baldwin, on 30 November 1991. He performed
yard work, including [***30] cleaning the gutters. Mr.
Baldwin fed him lunch. At the completion of defendant's
work, Mr. Baldwin paid him $30.
[**203] Mr. and Mrs. Baldwin were then murdered—
Mr. Baldwin by a cut to his carotid artery on his neck
and other trauma and Mrs. Baldwin by blunt force
trauma to her head and multiple knife wounds. The
State put on substantial evidence that the murders
occurred the night of defendant's work at the victims'
home. Specifically, testimony indicated that Mrs.
Baldwin's niece spoke to her on the phone at 7:00 p.m.
that evening and that Mrs. Baldwin's medication dose,
which she habitually took at 11:00 p.m. before going to
bed, was gone when the bodies were later discovered.
Testimony also showed that the 1 December 1991
newspaper, which Mr. Baldwin typically would have
retrieved by around 5:00 a.m. that day, was still on the
front porch, along with the papers for the following few
days. Thus, evidence showed that the Baldwins were
likely killed late at night on 30 November 1991 or very
early in the morning on 1 December 1991.
Mrs. Baldwin was also raped, and the evidence at trial
showed a DNA sample taken from her vaginal swab
matched defendant's DNA.1 A paring knife found at the
crime [***31] scene, under Mr. Baldwin's body and
covered in his blood, bore a fingerprint in the blood that
matched defendant's print.
Defendant claimed that the bloody print came from him
using a similar knife to clean gutters, and that during
that process, he scraped the back of his hand.
Defendant alleges that the scrapes on the back of his
hand would have produced the blood for the fingerprint
later found on the knife. But defendant's testimony is
undermined by the fact that his bloody fingerprint was
placed on the pairing knife since it was last washed.
Further, testimony indicated that the paring knife was
typically stored in a kitchen drawer and that Mr. Baldwin
never used kitchen utensils for yard work.

1 The

DNA test ruled out about a 99.7% of unrelated members
of North Carolina's Caucasian population, about 99.7% of the
Lumbee population, and about 94.4% of the Black population.
A second DNA test conducted at defendant's request showed
a 100% match to defendant. While not considered in this
Brady analysis, the second DNA test further confirms the
reliability of the first test.

The Baldwins were also robbed of between one and two
thousand dollars cash, some of which consisted of onehundred-dollar bills. Witness testimony indicated that
defendant possessed several [*357] one-hundreddollar bills after the murders, spent one hundred dollars
on cocaine just hours after the murders, and spent
several hundred dollars more on cocaine within a couple
days of the murders. When defendant filed this motion
for appropriate relief over twenty years later, alleging
certain evidence [***32] not disclosed before trial could
have been used for his benefit, the superior court
determined any nondisclosed evidence could not create
a reasonable probability that the evidence's disclosure
would have produced a different result. The superior
court thus denied his motion.
The majority reverses that decision and awards
defendant a new trial nearly thirty years after this
tragedy. It does so because in its view the evidence
defendant presents that was not disclosed by the State
before the trial would have a reasonable probability of
bringing about a different trial outcome. The evidence
defendant identifies would not do so. It does not begin
to outweigh the evidence the jury considered at trial that
is highly probative of defendant's guilt.
First, the majority properly rejects defendant's argument
that the State failed to disclose evidence related to
defendant's bloody fingerprint on the knife. Although
records indicate that the print was not useful on its own
at first, an analyst went on to explain how the print was
eventually evaluated and found to be a match with
defendant. This evidence does not benefit defendant;
thus, it cannot serve as a foundation for establishing a
Brady violation. [***33]
Second, defendant asserts that the State's failure to
disclose evidence of two other potential culprits
prejudiced his defense. The majority does not appear to
give this evidence much weight. Rightly so, because
one of the potential suspects was incarcerated during
the time the murders likely occurred, and the other was
excluded as a possible source of the DNA found from
Mrs. Baldwin's vaginal swab.
[**204] Next, defendant argues that the State
improperly withheld evidence from a witness interview
with Carolyn Troy. Troy testified at trial that defendant
spent hundreds of dollars a couple nights after the
murders, but the prior witness interview indicates that
Troy originally stated defendant had around $40 on his
person on that same night. The majority claims that this
evidence could have been used to impeach Troy's

11a

Page 11 of 12

376 N.C. 340, *357; 852 S.E.2d 191, **204; 2020 N.C. LEXIS 1138, ***33
testimony, which helped the State show that defendant
was spending money he stole from the Baldwins.
There are two problems with the majority's position.
First, in addition to Troy's testimony, the State was able
to present testimony from Tammy Rose Smith, who
testified that defendant spent a couple hundred [*358]
dollars or more just a couple hours after the crime likely
occurred. The [***34] majority sidesteps this evidence
and says that amount "is a far cry from the $1,8002 that
the State claims were stolen from the Baldwins." That
response is unsatisfying. The evidence shows that
defendant spent one-hundred dollar bills shortly after
the robbery. That testimony is probative enough in its
own right. There is no reason whatsoever to expect that
someone who stole over one thousand dollars would
spend the entirety of that sum only hours after acquiring
it. Second, Troy's later testimony went into far greater
detail about the large bills defendant possessed and the
sums he spent on various purchases. This more
detailed testimony would likely weaken the impact of
any vague earlier statement she made. Therefore, a jury
would still have substantial reason to believe Troy's
subsequent testimony, and the State had presented
other evidence of defendant's substantial spending after
the crime on which it could rely even if Troy's testimony
were undermined. Additionally, the SBI interviewed
three other people who gave witness statements about
defendant possessing one-hundred-dollar bills and
spending them on cocaine. Thus, if the evidence of
defendant's possession and spending of cash [***35]
presented at trial had been at all questioned, these
other three witnesses were available to support the
State's case.
The majority also relies on undisclosed luminol tests
and hair follicle samples. But these pieces of potential
evidence have minimal probative value at best. The
luminol tests indicated that bloody footprints were found
in the home. The majority suggests that if such prints
were found, then blood perhaps should have been
found on defendant's shoes after the crime. The hair
follicle collections revealed Caucasian hairs on the
victims' bodies which could not have been left by
defendant, who is Black. Yet, DNA testing and
fingerprint analysis are well known to be more probative
than hair follicle comparisons. Moreover, it is unclear
that reports of Caucasian hair particles found on the

2 It

is unclear precisely how much money was stolen from the
Baldwins, but testimony indicates that about $1000 was likely
stolen from Mr. Baldwin and as much as $800 from Mrs.
Baldwin.

victims would be helpful to defendant. The DNA test
implicating defendant left only a 0.3% chance that the
DNA left by the rapist belonged to a Caucasian person.
Despite the fact that the footprints and the hair follicles
do not point to anyone in particular, however, it is key
that the DNA testing and fingerprint evidence did
specifically implicate defendant. Evidence that
implicates no [***36] one does not invalidate or even
significantly undermine solid evidence that implicates
one person. Therefore, any introduction of evidence not
pointing to a specific individual does not raise a [*359]
reasonable probability that a different result would have
been reached at trial, especially considering the two
pieces of evidence that specifically implicate defendant.
In light of the strength of the evidence from the DNA and
fingerprint testing, the majority finally resorts to attacking
those things. Though the majority cannot point to any
new evidence that would undermine the credibility of
either the DNA test or the bloody fingerprint, it asserts
that "the evidence against Mr. Best is not as strong as
the State claims it is." As to the fingerprint, the majority
states that defendant testified at trial that his bloody
fingerprint was on the knife because he used a similar
one to clean the gutters and scraped the back of his
hand, meaning he could have touched the knife while he
had blood on his fingers. The majority admits that
defendant already tried this [**205] explanation at trial
and that the jury did not have to believe him. Indeed, it
would be implausible for the jury to believe him
because [***37] the knife (1) bore defendant's
fingerprint in Mr. Baldwin's blood after the knife had just
been washed; (2) was found underneath the body of Mr.
Baldwin, whose neck was sliced open;3 and (3) rarely
left the kitchen and was not used for yard work. But the
majority nonetheless considers defendant's bare
assertion significant as evidence that could undermine
the State's case.
The majority then, confusingly, describes the DNA test
results directly implicating defendant as "similarly
underwhelming." It notes that "[t]he State's expert
testified that, regarding the reliability of the DNA match,

3 The

majority contests whose blood was on the knife as well
as the location of the knife. The State reiterated multiple times
throughout this case and in its brief that the blood found on the
knife was Mr. Baldwin's and that the knife was found under the
victim. If there is a dispute over this evidence, this dispute
should be resolved by the trial court. The majority states that it
is not their job to weigh facts or find evidence, but that is
exactly what the majority does here by making a finding about
the placement of the knife.

12a

Page 12 of 12

376 N.C. 340, *359; 852 S.E.2d 191, **205; 2020 N.C. LEXIS 1138, ***37
one out of every eighteen African-American men would
match the sample recovered from Mrs. Baldwin." Stated
another way, the DNA test revealed that if defendant
were being falsely accused, there is only a one-ineighteen chance, just over a five-percent chance, that
he would be a match to the sample taken from Mrs.
Baldwin's vaginal swab. Thus, the DNA test alone
(without even considering the other evidence of
defendant's guilt) presents a high likelihood that he
raped Mrs. Baldwin. Of course, on top of that, defendant
has been unable to point to a plausible alternative
suspect of the same race to whom [***38] the DNA
sample could belong. The majority simply asserts,
contrary to logic and evidence, that the incriminating
result of the DNA test is underwhelming.

a different result. Holding otherwise, the majority weighs
the evidence in favor of defendant, inappropriately
attempts to undermine strong evidence supporting the
State's case, and inflates the significance of flimsy
evidence defendant uncovered later. If there is a conflict
in the evidence, this issue should be remanded to the
trial court. The superior [**206] court's denial of
defendant's motion for appropriate relief should be
affirmed. I respectfully dissent.5

End of Document

[*360] The majority's ultimate contention is that, in its
view, the State's evidence presented at trial is weak,
and thus there is a reasonable probability the withheld
evidence defendant identifies, had it been disclosed,
would have produced a different result in the
proceeding. But the evidence the State presented at trial
is indeed strong, and the evidence defendant argues
should be included is weak. The State has shown: a
statistically reliable DNA test directly implicating
defendant as Mrs. Baldwin's rapist; defendant's bloody
fingerprint on a likely murder weapon; uncontradicted
testimony that defendant was at the Baldwin's home
before the crime; and testimony that defendant
possessed and spent considerable sums of cash soon
after the Baldwins were robbed of a considerable sum of
cash. Defendant, on the other hand, has only: minimally
called into question just one witness's statement as to
precisely how much cash defendant carried a couple
days after the murders; pointed to two other potential
culprits, whom the evidence has generally [***39] ruled
out as the assailants; and identified some tests and
samples that do not implicate defendant (or anyone else
in particular). As the superior court determined, a
rational jury would not conclude that any reasonable
doubt existed as to defendant's guilt.4
Thus, even if the additional evidence to which defendant
points had been available for trial, there is not a
reasonably probability that the jury would have reached
5 Defendant
4 The

evidence here indicates that the knife was found under
the victim. The State reiterated this point multiple times
throughout the case and in its brief. If there is a dispute over
this evidence, this dispute should be resolved by the trial
court. The majority states that it is not their job to weigh facts
or find evidence, but that is exactly what the majority does
here by making a finding about the placement of the knife.

also asserts that his trial counsel's representation
was unconstitutionally deficient. I disagree. Defendant has not
shown either that his trial counsel was not functioning as the
"counsel" guaranteed by the Sixth Amendment or that there is
a reasonable probability that, but for counsel's purported
errors, the result of the proceeding likely would have been
different. See Strickland v. Washington, 466 U.S. 668, 687-96,
104 S. Ct. 2052, 2064-69, 80 L. Ed. 2d 674 (1984).

13a

14a

15a

16a

17a

18a

19a

20a

21a

22a

State v. Best
Supreme Court of North Carolina
March 15, 1995, Heard In The Supreme Court ; February 9, 1996, Decided
No. 300A93 - Bladen
Reporter
342 N.C. 502 *; 467 S.E.2d 45 **; 1996 N.C. LEXIS 7 ***

STATE OF NORTH CAROLINA v. NORFOLK JUNIOR
BEST

Subsequent History: US Supreme Court certiorari
denied by Best v. North Carolina, 519 U.S. 878, 117 S.
Ct. 203, 136 L. Ed. 2d 139, 1996 U.S. LEXIS 5631 (Oct.
7, 1996)
Post-conviction relief granted at, Remanded by State v.
Best, 2020 N.C. LEXIS 1138, 2020 WL 7416360 (N.C.,
Dec. 18, 2020)

Prior History: [***1] Appeal as of right pursuant to
N.C.G.S. § 7A-27(a) from judgments imposing
sentences of death entered by Hobgood, J., at the 17
May 1993 Special Criminal Session of Superior Court,
Bladen County, upon verdicts of guilty on two counts of
first-degree murder. The defendant's motion to bypass
the Court of Appeals as to his convictions of first-degree
burglary, first-degree rape, and robbery with a
dangerous weapon was allowed by this Court on 19 July
1994.

rape. The State's evidence showed that Leslie Baldwin
and his wife, Gertrude Baldwin, were eighty-two and
seventy-nine years of age, respectively. They were
killed in their home during the night of 30 November
1993. Earlier that day, the defendant had done yard
work for them.
Mr. Baldwin died as a result of the cutting of his carotid
artery, and Mrs. Baldwin died of blunt-force trauma to
the head. Money was missing from Mr. Baldwin's wallet
and from Mrs. Baldwin's purse. The defendant's DNA
matched one of the semen samples taken from Mrs.
Baldwin, and his [***2] fingerprint matched one on a
paring knife found beside Mr. Baldwin's body. The
defendant bought between $ 700 and $ 1,000 worth of
crack cocaine within two days after the killings.
The defendant was found guilty of all charges. After a
sentencing hearing, the jury recommended that the
death penalty be imposed on both convictions of
murder, which sentences were imposed. The defendant
was also sentenced to fifty years in prison for firstdegree burglary, life in prison for first-degree rape, and
forty years in prison for robbery with a dangerous
weapon. The prison sentences are to be served
consecutively.
The defendant appealed.
Counsel: Michael F. Easley, Attorney General, by
Thomas S. Hicks, Assistant Attorney General, for the
State.

Disposition: NO ERROR.
Henderson Hill, Director, North Carolina Resource
Center, Office of the Appellate Defender, by Marshall
Dayan, Senior Staff Attorney, for defendant-appellant.

Syllabus
Judges: WEBB, Justice.
The defendant was tried on two charges of first-degree
murder and one charge each of first-degree burglary,
robbery with a dangerous weapon, and first-degree

23a

Page 2 of 8

342 N.C. 502, *502; 467 S.E.2d 45, **45; 1996 N.C. LEXIS 7, ***2
Opinion by: WEBB

Opinion
[*509] [**50] WEBB, Justice.
The defendant first assigns error to the denial of his
motion for a change of venue to either New Hanover
County or Brunswick County. The crimes involved in this
case occurred in Columbus County. The defendant
made a motion to change the venue [***3] to Bladen,
New Hanover, or Brunswick County. The motion was
allowed, and the trial was moved to Bladen County after
the court found "there has been a great deal of word of
mouth publicity concerning this case" and "numerous
newspaper articles and editorials . . . including a recital
of all previous convictions of the defendant as well as
charges filed against him whether or not convicted."
The defendant then made a motion for a second change
of venue to either New Hanover or Brunswick County
which was denied. The defendant says this was error.
He contends that Bladen County is a small county
contiguous to Columbus County with the same
newspapers and television stations serving both
counties. He contends that if he could not receive a fair
trial in Columbus County, he could not receive a fair trial
in Bladen County. He argues that he was entitled to
[*510] take advantage of the findings of fact in the
order moving the case from Columbus County in the
determination of his motion to change the venue from
Bladen County. We presume the court in Bladen County
considered the order in Columbus County, but it was not
bound by it. The court in Bladen County could make a
determination as to whether [***4] a fair trial could be
had in Bladen County.
N.C.G.S. § 15A-957 provides that if there is so great a
prejudice against a defendant in the county in which he
is charged that he cannot receive a fair trial, the court
must transfer the case to another county or order a
special venire from another county. The purpose of this
statute is to insure that jurors decide cases on evidence
introduced at trial and not on something they have
learned outside the courtroom. State v. Moore, 335
N.C. 567, 440 S.E.2d 797 (1994); State v. Gardner, 311
N.C. 489, 319 S.E.2d 591 (1984), cert. denied, 469 U.S.
1230, 84 L. Ed. 2d 369, 105 S. Ct. 1232 (1985). In most
cases a showing of identifiable prejudice to the

defendant must be made, and relevant to this inquiry is
testimony by potential jurors that they can decide the
case based on evidence presented and not on
information received outside the courtroom. State v.
Abbott, 320 N.C. 475, 358 S.E.2d 365 (1987).
In the hearing on the motion to move the case from
Bladen County, the defendant introduced articles and
editorials from newspapers from Columbus, Bladen, and
New Hanover counties, as well as an affidavit indicating
that news broadcasts on television [***5] stations had
reported the case but not what was contained in the
broadcasts. The newspaper articles, except for the
editorials, were reports of facts involved in the case.
There [**51] was no evidence, as there had been in
the hearing on the motion to move the case from
Columbus County, of widespread knowledge concerning
the case.
We cannot hold, based on the evidence presented at
the hearing, that there was error in denying the motion
for a change of venue. This conclusion is reinforced by
the answers given by the jurors during the selection of
the jury. Six of those selected to serve had not heard of
the case. Four of the jurors selected had seen
something about the case on television, but each said
he or she had not formed an opinion about it. Two of the
jurors had read something about the case in a
newspaper but had formed no opinion about it. We are
confident the defendant was tried by a jury which was
not influenced by information received outside the
courtroom.
This assignment of error is overruled.

[*511] The defendant, who is black, next assigns error
to the overruling of his objection to the allowance of
peremptory challenges by the State of six potential
black jurors. He says his [***6] constitutional rights as
delineated in Batson v. Kentucky, 476 U.S. 79, 90 L. Ed.
2d 69, 106 S. Ct. 1712 (1986), were violated by this
action. When an objection is made to the exercise of a
peremptory challenge on the ground that the challenge
is racially motivated, the trial judge must first determine
whether the objecting party has made a prima facie
case of discrimination. If the court determines he has
done so, the proponent of the strike must come forward
with a racially neutral explanation. The explanation may
be implausible or even fantastic, but if it is racially
neutral the opponent of the challenge has satisfied his
requirement in this step in the process. If the court finds
that the explanation is racially neutral, it must then

24a

Page 3 of 8

342 N.C. 502, *511; 467 S.E.2d 45, **51; 1996 N.C. LEXIS 7, ***6
determine whether the challenge was racially motivated.
The burden of proof is on the party objecting to the
challenge, and the determination of the question of
racial motivation is a finding of fact entitled to great
deference by an appellate court. Purkett v. Elem, ___
U.S. ___, 131 L. Ed. 2d 834 (1995); Hernandez v. New
York, 500 U.S. 352, 114 L. Ed. 2d 395, 111 S. Ct. 1859
(1991).
When the defendant objected to the peremptory
challenges, the prosecutor gave his [***7] reasons for
exercising them without a ruling by the court that the
defendant had made a prima facie showing of racial
discrimination. We shall examine this assignment of
error as if such a finding had been made as to each
venireman. See Hernandez v. New York, 500 U.S. at
363, 114 L. Ed. 2d at 405.
The State exercised six peremptory challenges against
blacks while the jury was being selected and one such
challenge while two alternate jurors were being
selected. The first potential black juror peremptorily
challenged was Lori Featherson. The prosecuting
attorney stated as his reasons for exercising the
challenge that Ms. Featherson had seen the defendant
although she did not know him, that he perceived that
she had difficulty in expressing her opinion as to the
death penalty, and that an assistant district attorney had
prosecuted her grandfather. The court found from the
record that Ms. Featherson stated that she had seen the
defendant; that from the court's personal observation,
she was hesitant in responding to questions regarding
the death penalty; and that Ms. Featherson stated she
had family members who had been prosecuted by the
district attorney. The court held that the [***8]
defendant had not carried his burden of showing that
the challenge to Ms. Featherson was racially
discriminatory.
[*512] The second potential black juror peremptorily
challenged by the State was Vontea Horton. The State
gave as its reason for the challenge that she was
opposed to the death penalty although not to the extent
that she could be challenged for cause. The court found
Ms. Horton had stated she was opposed to the death
penalty but could consider voting for the death penalty.
The court found further that this challenge was not
racially discriminatory and overruled the defendant's
objection to it.
The third black venireman peremptorily challenged by
the State was Nathan Swindell. The State gave as its
reason for this challenge that Mr. Swindell had been

convicted of an Employment Security Commission
[**52] fraud and was serving a probationary sentence
for it. The court found this challenge was not racially
motivated and overruled the objection to it.
The fourth potential black juror peremptorily challenged
by the State was Shirley Shaw. The State gave as its
reason for the challenge that she had "expressed that
she was against the death penalty, and she was very
hesitant about her ability [***9] to be able to vote for the
death penalty." The court found that she had said she
was against the death penalty. It found further that the
challenge was not racially motivated and overruled the
defendant's objection to it.
The fifth potential black juror as to whom the State
exercised a peremptory challenge was Lula Corbett.
The State gave as its reason for exercising this
challenge that she was a friend of a man charged with
murder who would be prosecuted by the district
attorney's office that was prosecuting this case. The
court found that this prospective juror had stated that
she was a friend of a person who was charged with
murder. It further found that the challenge by the State
was not racially motivated and overruled the objection to
the challenge.
The sixth potential black juror peremptorily challenged
by the State was Rosa Lewis. The prosecuting attorney
articulated as his reason for exercising the challenge
that she had indicated that she was against the death
penalty but would "go along with what the rest of the
jurors would do." The court found that Ms. Lewis had so
stated and found further that the challenge was not
racially motivated. The defendant's objection to [***10]
the challenge was overruled.
The prospective black alternate juror peremptorily
challenged by the State was Shelbin Simpson. The
State gave as its reason for the [*513] challenge that
Ms. Simpson stated she had strong religious beliefs
against the death penalty and went "back and forth" on
her position on the death penalty. The court found that
the proposed juror had so said and found that this
challenge was not racially motivated. The defendant's
objection to this challenge was overruled.
We cannot find error in the rulings by the court on the
peremptory challenges. The State articulated its
reasons for the challenges without a finding that the
defendant had made a prima facie showing of racial
discrimination. The court found that all the reasons for
the challenges articulated by the State were racially
neutral. The court then held as to each challenge that

25a

Page 4 of 8

342 N.C. 502, *513; 467 S.E.2d 45, **52; 1996 N.C. LEXIS 7, ***10
the challenges were not racially motivated. Giving this
finding of fact great deference, as we are required to do,
we cannot hold it was error for the court to rule as it did.

The defendant argues under this assignment of error
that the prosecution's exercise of twelve of fourteen
peremptory challenges against women makes a [***11]
prima facie case of gender discrimination. J.E.B. v.
Alabama ex rel. T.B., ___ U.S. ___, 128 L. Ed. 2d 89
(1994). He asks that we remand the case to superior
court for a hearing as to whether there was gender
discrimination in the selection of the jury.
The defendant also argues that the peremptory
challenges by the State of seven of nine AfricanAmerican women establish a prima facie case of
discrimination against African-American women. He
asks for a hearing in superior court on this matter.
The defendant did not object to any of the peremptory
challenges on the ground of discrimination against
women or African-American women. He cannot raise
the question for the first time on appeal. State v.
Williams, 308 N.C. 47, 301 S.E.2d 335, cert. denied,
464 U.S. 865, 78 L. Ed. 2d 177, 104 S. Ct. 202 (1983).
This assignment of error is overruled.
The defendant next assigns error to the admission of
expert testimony from an agent of the State Bureau of
Investigation. The agent, without objection by the
defendant, was found to be an expert in DNA analysis.
He testified he had performed tests by comparing the
DNA from semen found in Mrs. Baldwin's vagina with
DNA from blood taken from [***12] the defendant. The
SBI agent testified that the DNA sample taken from the
semen was degraded and was difficult to separate from
the DNA from the victim's blood. He testified that the
tests [**53] were inconclusive in that they did "not
count[] [the defendant] out" and [*514] that the tests
would eliminate approximately ninety-four of one
hundred people from the black population.
The defendant contends it was error to admit this
"skewed and patently unreliable DNA evidence." This
testimony was relevant, as it made it more likely that the
defendant was guilty if ninety-four of one hundred
persons in the black population were excluded by the
DNA test, and the defendant was not. The weight of the
evidence was for the jury.
This assignment of error is overruled.

The defendant next assigns error to the denial of his
motion to dismiss the charge of first-degree rape. We
disagree. The DNA expert testified that the semen taken
from the vagina of Mrs. Baldwin was not from Mr.
Baldwin. This is evidence from which the jury could find
that someone other than her husband penetrated Mrs.
Baldwin. The injuries she sustained, including the
defensive wounds on her hands, the cuts on her neck
and chest, and [***13] the multiple injuries to her face
and head, are evidence from which the jury could find
the penetration was not consensual. The defendant's
identity as the perpetrator of the crime is established by
his fingerprint on the knife found next to the body of Mr.
Baldwin. Any discrepancies in the evidence were for the
jury to resolve. State v. Powell, 299 N.C. 95, 261
S.E.2d 114 (1980).
This assignment of error is overruled.

The defendant next contends that it was error to allow
certain testimony by the decedents' daughter. The
defendant did not object to this testimony, and we must
examine this assignment of error under the plain error
rule. State v. Odom, 307 N.C. 655, 300 S.E.2d 375
(1983). Betsy Baldwin Marlowe, the decedents'
daughter, testified that she knew her father's habit of
keeping in an envelope in his wallet approximately $
1,000 he had received from the settlement of an
insurance claim. Ms. Marlowe also testified that her
mother kept in an envelope approximately $ 800 she
had received from the sale of an automobile.
The defendant says that this testimony was propounded
as evidence of habit but that it did not show habit and
was not admissible under N.C.G.S. [***14] § 8C-1,
Rule 406. The defendant says this testimony was
evidence of specific instances in which the parents of
Ms. Marlowe received sums of money.
[*515] Assuming this testimony was not admissible to
prove habit and that it was not admissible under some
other rule of evidence, its admission did not amount to
plain error. It was not a "'fundamental error, something
so basic, so prejudicial, so lacking in its elements that
justice cannot have been done.'" Odom, 307 N.C. at
660, 300 S.E.2d at 378 (quoting United States v.
McCaskill, 676 F.2d 995, 1002 (4th Cir.), cert. denied,
459 U.S. 1018, 74 L. Ed. 2d 513, 103 S. Ct. 381 (1982)
(footnotes omitted)).
This assignment of error is overruled.

26a

Page 5 of 8

342 N.C. 502, *515; 467 S.E.2d 45, **53; 1996 N.C. LEXIS 7, ***14
The defendant next assigns error to the imposition of
the death penalty because he says he is mentally
retarded. The Eighth Amendment to the Constitution of
the United States, which forbids the infliction of cruel
and unusual punishment, does not forbid the death
penalty for mentally retarded persons.
Penry v.
Lynaugh, 492 U.S. 302, 106 L. Ed. 2d 256, 109 S. Ct.
2934 (1989). The statute which provides for the death
penalty does not have an exception for mental
retardation. N.C.G.S. § 15A-2000 (Supp. 1995).
If [***15] we are to hold that a mentally retarded person
may not be executed in this state, we would have to
hold that this part of our capital punishment scheme is
unconstitutional under Article I, Section 27 of the
Constitution of North Carolina.
The first difficulty with the defendant's argument is that it
is not at all certain that he is mentally retarded. N.C.G.S.
§ 122C-3(22) defines mental retardation as "significantly
subaverage general intellectual functioning existing
concurrently with deficits in adaptive behavior and
manifested before age 22." N.C.G.S. § 122C-3(22)
(1993). An IQ of less than seventy is considered a
"significantly
subaverage
general
intellectual
functioning." State v. Skipper, 337 N.C. 1, 65, 446
S.E.2d 252, 288 (1994) (Exum, C.J., concurring),
[**54] cert. denied, ___ U.S. ___, 130 L. Ed. 2d 895
(1995). The defendant has an IQ of seventy. The
defendant presented evidence that he was employed
and was able to function in society. This tends to negate
a finding that he had a deficit adaptive behavior. The
defendant has not shown he is mentally retarded.
The constitutional issue which the defendant presses
under this assignment of error is not before us.
This [***16] assignment of error is overruled.
In his next assignment of error, the defendant argues
there were nine different examples of prosecutorial
misconduct which entitle [*516] the defendant to a new
trial. The first instance argued by the defendant involved
a question on cross-examination of the defendant in
which the prosecutor asked him whether he had been
convicted of assault with a deadly weapon inflicting
serious injury in 1973. The court sustained the objection
to this question and instructed the jury not to consider it.
The State had not advised the defendant of its intent to
use the evidence which the question was designed to
elicit. The defendant contends it was error for the State
to ask this question pursuant to N.C.G.S. § 8C-1, Rule
609(b) because the assault conviction was more than
ten years old. Any error that occurred was cured by the

instruction to the jury not to consider the question. The
information imparted by this question was not so
shocking or disturbing that the jury would have been
unable to follow the court's instruction. We assume the
jury followed the court's instructions. State v. Larrimore,
340 N.C. 119, 168, 456 S.E.2d 789, 815 (1995).
The defendant's second [***17] contention is that the
prosecutor was guilty of misconduct by asking the
defendant's DNA expert whether she knew that she was
the second DNA expert consulted by the defendant. The
defendant argues that this question was asked in bad
faith and was designed to give the jury the impression
that the defendant had shopped for an expert until he
found one that would testify as the defendant wanted.
The defendant contends the prosecutor knew this was
not the case. State v. Dawson, 302 N.C. 581, 276
S.E.2d 348 (1981).
The defendant objected to the question. The trial court
sustained the objection and instructed the jury to
disregard the question and not to consider the question
in its deliberations. Assuming without deciding that
misconduct occurred, the court's instruction cured any
error. The instruction was clear, and we must assume
the jury followed the instructions of the court in making
its determination. Larrimore, 340 N.C. at 168, 456
S.E.2d at 815.
The defendant's fourth contention is that the prosecutor
improperly attacked the credibility of the defendant's
DNA expert by arguing to the jury that the defendant
chose an expert from Ohio rather than choosing one
from either [***18] of two laboratories in North Carolina.
The defendant objected to the argument. The trial court
sustained the objection and instructed the jury not to
consider the prosecutor's argument. Again, assuming
without deciding that misconduct [*517] occurred, the
court's instruction cured any error. The instruction was
clear, and we must assume the jury followed the
instructions of the court in making its determination. Id.
The defendant next contends that the prosecutor
improperly argued during the argument at the guilt
phase that after Mr. Baldwin received his fatal injuries,
he was aware or was contemplating that his wife was
being raped.
The defendant argues that the prosecutor's argument
was improper because the State failed to present any
evidence that Mr. Baldwin had the ability to comprehend
anything after his carotid artery had been severed.
"Counsel is given wide latitude to argue the facts and all

27a

Page 6 of 8

342 N.C. 502, *517; 467 S.E.2d 45, **54; 1996 N.C. LEXIS 7, ***18
reasonable inferences which may be drawn therefrom,
together with the relevant law, in presenting the case to
the jury." State v. Britt, 291 N.C. 528, 537, 231 S.E.2d
644, 651 (1977). In addition, during a closing argument,
an attorney may, "on the basis of his analysis of
the [***19] evidence, argue any position or conclusion
with respect to a matter in issue." N.C.G.S. § 15A1230(a) [**55] (1988). The forensic pathologist who
performed the autopsy on Mr. Baldwin testified at trial
that he was unable to determine the exact time of Mr.
Baldwin's death. Blood spatters on the wall, bookcases,
and the door to Mrs. Baldwin's bedroom supported the
inference that Mr. Baldwin received his lethal wound in
that location. It could be concluded from the evidence
that Mr. Baldwin had the ability to comprehend during
the struggle and while he was wounded that his wife
might be raped.
The defendant next contends that the prosecutor, during
his jury argument, said that defense counsel lied to the
jury, which violates the rule of State v. Sanderson, 336
N.C. 1, 442 S.E.2d 33 (1994), that a prosecutor may not
engage in improper conduct toward defense counsel.
During his jury argument, the prosecutor said, "And [the
defendant is] not entitled to have you buy that cock-andbull mess that [defense counsel] have thrown up to
you."
Our review of the record shows that the prosecutor used
the term "cock-and-bull mess" to refer to the contention
made by defense counsel in closing argument [***20]
that the investigators should have examined the bag of
the vacuum cleaner that was in the hallway near Mr.
Baldwin's body for evidence. The record reveals that the
prosecutor was merely responding to the contention by
saying that it was not logical for the investigators to
conclude that the perpetrator used the vacuum cleaner
to clean up the blood left from the killings. The
prosecutor's argument was directed at the improbability
of the story, not [*518] at the veracity of defense
counsel. The defendant's contention is without merit.
The defendant next contends there was error in the
cross-examination of Susan Brooks, a law-student
intern with the North Carolina Resource Center, who
testified for the defendant. The defendant contends that
rather than directing the cross-examination to the
substance of Ms. Brooks' testimony, the State
concentrated on the nature and function of the
Resource Center, which was irrelevant. Ms. Brooks and
the Resource Center had helped the defendant prepare
his defense. The State was entitled to cross-examine
Ms. Brooks about the Resource Center to show bias,

motive, or interest. State v. Spicer, 285 N.C. 274, 204
S.E.2d 641 (1974).
The defendant's final [***21] contention in this
assignment of error is that the State committed gross
misconduct during closing argument of the sentencing
phase by calling the defendant a liar and by chastising
him for exercising his constitutional right to stop talking
to police officers.
The defendant argues that the prosecutor called the
defendant a liar when he argued to the jury:
I suppose he would answer questions from the
officers, as long as he wasn't telling the truth about
it and as long as he was saying, "I didn't do
anything."
The prosecutor made this argument while arguing that
the jury should not find the nonstatutory mitigating
circumstance "that although the defendant did not
confess, he was cooperative in answering questions of
the investigating officers." The defendant testified at trial
that when questioned about going back to the Baldwins'
house after he finished his work there, he told the
officers that he did not return.
A prosecutor may not express a personal opinion
concerning the veracity of a witness' testimony. State v.
Miller, 271 N.C. 646, 157 S.E.2d 335 (1967). In this
case, the prosecutor was not expressing his belief that
the defendant was lying to the police [***22] officer. The
phrase "I suppose" does not refer to the prosecutor's
personal opinion. Rather, it is a comment by the
prosecutor on the strength of the evidence supporting
the mitigating circumstance.
The defendant also argues that the following argument
of the prosecutor was an improper comment on his
invocation of the right to remain silent:
[*519] So when [the defendant and the officer]
start talking about something real important . . .
what does he tell [the officer]? . . . Take me back to
my cell.
A defendant's silence after receiving Miranda warnings
cannot be used against him as evidence of guilt. Doyle
v. Ohio, 426 U.S. 610, [**56] 49 L. Ed. 2d 91, 96 S. Ct.
2240 (1976). Although the record in this case does not
indicate whether the defendant received Miranda
warnings, if he did, the State has not violated his right to
silence because the prosecutor's comment did not
address the defendant's guilt. Again, the prosecutor's
comment was directed at the strength of the evidence
supporting the nonstatutory mitigating circumstance that

28a

Page 7 of 8

342 N.C. 502, *519; 467 S.E.2d 45, **56; 1996 N.C. LEXIS 7, ***22
the defendant was cooperative in answering the
questions of the investigating officers. The prosecuting
attorney was merely arguing to the jury [***23] that it
should not find any mitigating value in the mitigating
circumstance. See State v. Rouse, 339 N.C. 59, 451
S.E.2d 543 (1994), cert. denied, ___ U.S. ___, 133 L.
Ed. 2d 60 (1995).
This assignment of error is overruled.
In his next assignment of error, the defendant argues
that the trial court violated his due process rights by
failing to inform the jury that he was unlikely ever to be
paroled. We addressed this issue and found against the
defendant's position in State v. Jones, 336 N.C. 229,
443 S.E.2d 48, cert. denied, ___ U.S. ___, 130 L. Ed.
2d 423 (1994), and State v. Skipper, 337 N.C. 1, 446
S.E.2d 252. The defendant presents no new arguments
that persuade us to reconsider these holdings.
In his next assignment of error, the defendant argues
that the court erred by failing to require the jury to
consider any mitigating circumstance found in Issue
Two when weighing the aggravating circumstances
against the mitigating circumstances in Issues Three
and Four. The court gave an almost identical charge on
this point in State v. Lee, 335 N.C. 244, 439 S.E.2d 547,
cert. denied, ___ U.S. ___, 130 L. Ed. 2d 162 (1994).
We found no error in that case, [***24] and the
defendant has presented no new argument that
persuades us to change our position. This assignment
of error is overruled.
The defendant next contends it was error for the court to
charge the jury that in order to find a nonstatutory
mitigating circumstance, it must find the facts supporting
the circumstance to exist and that those facts have
mitigating value. We held this was a proper charge in
State v. Hill, 331 N.C. 387, 417 S.E.2d 765 (1992), cert.
denied, ___ U.S. ___, 122 L. Ed. 2d 684 (1993). The
defendant presents no new [*520] argument which
persuades us to change our position. This assignment
of error is overruled.
The defendant assigns error to a statement by the court
to the jury. After the jury had been excused for the
evening meal and seven of the jurors had left the
courtroom, the foreman of the jury sent a message to
the judge through the bailiff "that one juror wanted to
talk to the judge, that the juror could not decide." The
judge responded:
Now, the Court cannot talk to any juror alone. The
Court can only make comments in the presence of
all twelve jurors. So I ask that all twelve jurors now

leave and come back at seven-thirty.
The jurors [***25] returned from their recess at 7:30
p.m., and the court instructed them as follows:
Now, members of the jury, before I ask you to go
back into the jury room to continue your
deliberations, I would like to inform you of a rule of
the Court. The Judge cannot answer a question
without all twelve jurors present. If you have any
question you wish to have answered, in the jury
room agree upon what the question is, have the
foreperson write the question down on a piece of
paper, and then all -- knock on the jury room door
and all twelve of you come back into the courtroom.
And then at that time the foreperson of the jury can
present the written question to the Judge for an
answer.
The jury then retired to the jury room. It did not submit a
question to the court. The defendant says that the court,
by its statement to the jury, imposed a rule that required
the assent of all jurors for a single juror to communicate
with the court. We disagree.
We read the court's statement to mean that if one or
more of the jurors wanted to ask a question of the court,
the jury would agree on the form of the question, and
the foreman could submit the question in writing [**57]
to the court. There was [***26] no restriction on any
question a juror desired to ask.
This assignment of error is overruled.
In his final assignment of error, the defendant contends
that the trial court erred by failing to conduct an
individual jury poll as required by N.C.G.S. § 15A2000(b). The defendant argues that the record shows
that the foreperson answered the question, "Do you still
assent thereto?" for jurors one, two, four, five, six,
seven, and eight. The defendant is correct in his
assertion that the original transcript [*521] indicated
that the foreperson answered the question for those
jurors. The transcript has been amended by the court
reporter, however, to correct the typographical error of
substituting "foreperson" for the juror who was actually
answering the question. The amended transcript shows
that each juror answered each question in compliance
with N.C.G.S. § 15A-2000(b).
This assignment of error is overruled.
We find no error in the trial or sentencing hearing.
PROPORTIONALITY REVIEW

29a

Page 8 of 8

342 N.C. 502, *521; 467 S.E.2d 45, **57; 1996 N.C. LEXIS 7, ***26
Finding no error in the trial, it is our duty to determine (1)
whether the record supports the jury's finding of
aggravating and mitigating circumstances; (2) whether
any of the sentences were imposed under [***27] the
influence of passion, prejudice, or any other arbitrary
factor; and (3) whether either of the sentences of death
is excessive or disproportionate to the penalty imposed
in similar cases. N.C.G.S. § 15A-2000(d)(2); State v.
Robbins, 319 N.C. 465, 356 S.E.2d 279, cert. denied,
484 U.S. 918, 98 L. Ed. 2d 226, 108 S. Ct. 269 (1987).
An examination of the record reveals the evidence
supports the findings of the aggravating and mitigating
circumstances. The defendant does not contend
otherwise. We also hold that the sentences were not
imposed under the influence of passion, prejudice, or
any other arbitrary factor.
Our next task is to determine whether either of the
sentences imposed is excessive or disproportionate to
the penalties imposed in similar cases. For both crimes,
the jury found three aggravating circumstances: (1) the
defendant had previously been convicted of a felony
involving the use or threat of violence to the person, (2)
the murder was committed for pecuniary gain, and (3)
the murder was part of a course of conduct in which the
defendant engaged that included the commission by the
defendant of a crime of violence against another person.
N.C.G.S. §§ 15A-2000(e)(3), (6), (11).
[***28] Twenty-eight mitigating circumstances were
submitted to the jury. One or more jurors found eleven
of them, none of which were statutory mitigating
circumstances.
This Court gives great deference to a jury's
recommendation of a death sentence. State v.
Quesinberry, 325 N.C. 125, 145, 381 S.E.2d 681, 694
(1989), sentence vacated on other grounds, 494 U.S.
1022, 108 L. Ed. 2d 603 (1990). In only seven cases
have we found a death
[*522]
sentence
disproportionate. See State v. McCollum, 334 N.C. 208,
240-42, 433 S.E.2d 144, 162-63 (1993), cert. denied,
___ U.S. ___, 129 L. Ed. 2d 895 (1994). In several
cases which have characteristics similar to this case, we
have affirmed the imposition of the death penalty.

We note first that this Court has never found a death
sentence disproportionate when a defendant was
convicted of more than one murder. State v. Garner,
340 N.C. 573, 610, 459 S.E.2d 718, 738 (1995). In fact,
the defendant's status as a multiple killer is a "heavy
factor to be weighed against the defendant." State v.

Laws, 325 N.C. 81, 123, 381 S.E.2d 609, 634 (1989),
sentence vacated on other grounds, 494 U.S. 1022,
108 L. Ed. 2d 603 (1990).
We
found
the
death [***29]
sentence
not
disproportionate in State v. Gardner, 311 N.C. 489, 319
S.E.2d 591, in which the jury found two of the same
aggravating circumstances found in this case, that the
murder was committed for pecuniary gain and that the
murder was part of a course of conduct which included
the commission of crimes of violence against another
person. We also found the death sentence not
disproportionate in State v. Green, 336 N.C. 142, 443
S.E.2d 14, cert. denied, ___ U.S. ___, 130 L. Ed. 2d
547 (1994), and State v. Miller, 339 N.C. 663, [**58]
455 S.E.2d 137, cert. denied, ___ U.S. ___, 133 L. Ed.
2d 169 (1995). In both of those cases, the jury found the
same three aggravating circumstances found in this
case.
We are impressed with the brutality and the wanton
disregard for human life present in this case. The
defendant beat and stabbed the victims to facilitate a
robbery. When the killings in this case are compared to
those in the cases listed above in which death
sentences were imposed, the similarity of the
characteristics of the cases convinces us that the
penalties imposed in this case are not excessive or
disproportionate to the penalties imposed in similar
cases, considering [***30] the crimes and the
defendant.
We hold that the defendant received a trial and
sentencing hearing free of prejudicial error; that the
aggravating circumstances found were supported by the
evidence; that the sentences of death were not imposed
under the influence of passion, prejudice, or any other
arbitrary factor; and that the sentences of death are not
excessive or disproportionate to the penalties imposed
in similar cases.
NO ERROR.

End of Document

30a

STATE OF NORTH CAROLINA

IN THE GENERAL COURT OF JUSTICE

COUNTY OF BLADEN

SUPERIOR COURT DIVISION
FILE NO. 91 CrS 2621-22

STATE OF NORTH CAROLINA
v.
NORFOLK JUNIOR BEST,

Defendant.

)
) TRANSCRIPT, Volume I of I
)
(Pages 1 - 91)
)
)
Monday, April 11, 2016
)
)

Columbus County Criminal Superior Court
April 11, 2016 Special Session
The Honorable Douglas B. Sasser, Judge Presiding
DNA Motion Hearing
APPEARANCES:
Jonathan P. Babb, Special Deputy Attorney General
Nick Vlahos, Assistant Attorney General
North Carolina Department of Justice
114 W. Edenton Street
Raleigh, NC 27602
On behalf of the State
Michael L. Unti, Esq.
Sharon L. Smith, Esq.
Unti & Smith, PLLC
P.O. Box 99815
Raleigh, NC 27624
On behalf of the Defendant
____________________________________________________________
KAREN J. TURNAGE, RPR
Official Court Reporter
District 13A Resident
P.O. Box 277
Dunn, N.C. 28335
(919)207-7580

Mr. Boodee - Direct
1

31a

68

Exhibit 4, what does that comparison tell you?
A.

2

The DNA profile obtained from the sperm fraction

3

of the vaginal swabs once again matches the DNA profile

4

obtained from the buccal swabs from the defendant.

5

MR. BABB:

6

THE COURT:
Q.

7
8

May I approach, Your Honor?
You may.

Mr. Boodee, I've just handed you what has been

marked as State's Exhibit 5.
A.

9

Do you recognize it?

This is a tabulation of the calculation which was

10

done based on the STR analysis of the comparison of the

11

sperm fraction back to -- or the major profile of the sperm

12

fraction back to the standard from the defendant.
Q.

13

And before I ask you anything else about that

14

exhibit, would you explain -- you've done it a little before

15

earlier in your testimony, but would you explain Random

16

Match Probability.
A.

17

Sure.

Once again, the main use, the most

18

important use of forensic DNA analysis is to exclude someone

19

from the possibility of being involved with a crime.

20

we can't do that, we then have to go into the population and

21

say:

22

population?

23

Once

How frequently is this DNA profile found within the
What is the possibility of a random match?

The way that you do that is what's known as doing

24

a Random Match Probability calculation.

And in this

25

particular case, Sorenson Forensics has done this basically
KAREN J. TURNAGE, RPR
Official Court Reporter
District 13A Resident

Mr. Boodee - Direct

32a

69

1

in the same method that we would do at the State Crime

2

Laboratory, the same way the FBI does it, the same way

3

hopefully every accredited laboratory throughout the United

4

States would do it the same way, to come up with a frequency

5

of how frequently this profile could be found or estimated

6

to be in the population.

7

Q.

And what is the result of the Random Match

8

Probability of this profile occurring, again, in the African

9

American population?

10

A.

It's 1 in 490 trillion.

11

Q.

Mr. Boodee, could you explain why Random Match

12
13

Probability is not used with Y-STR DNA testing?
A.

With the Y chromosome, as Dr. Noureddine was

14

saying earlier, they are all found on the Y chromosome

15

themselves.

16

STR analysis is for all of the different chromosomes to be

17

independent of each other.

18

found in different chromosomes, they are all not linked to

19

each other, you can then use what's known as the Product

20

Rule in order to multiply the frequency by each other.

21

So what you are looking for when you are doing

If they are all independent or

Now, on the Y chromosome, it hasn't been shown

22

yet, it hasn't been proven, that all of these different loci

23

are independent, or they are not linked to each other.

24

you can't use the same calculation method for STRs with

25

Y-STR analysis.

So

You have to use a different method, which
KAREN J. TURNAGE, RPR
Official Court Reporter
District 13A Resident

